                     STATE OF NORTH CAROLINA

               EVALUATION OF GRANT OBLIGATIONS
                      AND EXPENDITURES

              WORKFORCE INVESTMENT ACT GRANTS
               AND JOB TRAINING PARTNERSHIP ACT
                       TRANSITION FUNDS


             INDEPENDENT ACCOUNTANT’S REPORT
            ON APPLYING AGREED-UPON PROCEDURES

               JULY 1, 2000 THROUGH MARCH 31, 2002




This agreed-upon procedures report was prepared by Harper, Rains, Stokes and Knight, P.A.,
under contract to the U.S. Department of Labor, Office of the Inspector General, and, by
acceptance, it becomes a report of the Office of Inspector General.


                         _____________________________________
                         Assistant Inspector General for Audit
                         U. S. Department of Labor




                                                Report No: 04-03-012-03-390
                                                Date Issued: March 28, 2003

             HARPER, RAINS, STOKES, & KNIGHT, P.A.
                                                TABLE OF CONTENTS


Acronyms .......................................................................................................................................iii

Independent Accountant’s Report on Applying Agreed-Upon Procedures .................................... 1

Summary of Results ........................................................................................................................ 2

Background, Scope and Methodology ........................................................................................... 3

           Background ......................................................................................................................... 3
           Scope and Methodology...................................................................................................... 4

Procedures and Findings ................................................................................................................. 5

Exhibit I – Sample Financial Status Report

Exhibit II – State of North Carolina’s Response




                                                                  ii
                       ACRONYMS


CFR    Code of Federal Regulations

DET    North Carolina Department of Commerce, Division of
       Employment and Training

DOL    U.S. Department of Labor

ETA    Employment and Training Administration

FIFO   First-In-First-Out

FMIS   Financial Management Information System

FSR    Financial Status Report

FY     Fiscal Year

JTPA   Job Training Partnership Act

MFR    Monthly Financial Report

OIG    Office of the Inspector General

PY     Program Year

PYA    Program Year Allocation

WIA    Workforce Investment Act




                            iii
                               SUMMARY OF RESULTS


We obtained and summarized the WIA funds obligated and expended as of December 31,
2001 by the State of North Carolina. We determined that the obligation information
reported by the State as of December 31, 2001 included actual obligations for Statewide
activities. However, obligations reported on the FSRs for Local Board activities were the
amounts passed through the State to the Local Boards rather than the amounts that the
Local Boards had actually obligated.

We found that State accounting records supported the amounts reported as obligations
and expenditures on quarterly FSRs. Additionally, accounting records at three Local
Boards we visited supported reported expenditures.

Procedures were established for recording expenditures on the accrual basis of
accounting in accordance with Federal regulations. Available funds and expenditures
reported to the State by Local Boards were substantiated by contracts and monthly
reports received from contractors.

As of December 31, 2001 North Carolina had expended $69.4 million of the $122.9
million awarded, leaving $53.5 million or 43.5 percent unexpended. At this rate of
spending, it would take approximately fourteen months to spend the remaining funds,
during which time the State would receive additional WIA allocations.

The State and Local Boards charged expenditures to WIA on a First-In-First-Out (FIFO)
basis, rather than matching Program Year (PY) expenditures with the grants applicable to
the period in which the expenditure accrued. As a result, a particular period’s actual cost
of operation could not be associated with the funding for the same period.


State of North Carolina’s Response

The North Carolina Department of Commerce provided a written response to our draft
report, dated March 25, 2003, which is included in its entirety at Exhibit II. In general,
the State agreed with the information presented in the report, but provided additional
comments. North Carolina stated that it is impracticable to operate the WIA program in
any way other than by charging and reporting expenditures utilizing the FIFO method.

Our procedures were not intended to determine North Carolina's compliance with
program requirements. However, by using the FIFO basis, North Carolina does charge
current expenditures to prior period funds until exhausted.




                                             2
                    BACKGROUND, SCOPE AND METHODOLOGY


Background

WIA, enacted in 1998, was designed to reform prior Federal job training programs and to
create a new, comprehensive workforce investment system. The reformed system intends
to provide customer-focused services, assist Americans in accessing the tools needed to
manage their careers through information and services, and assist U.S. companies in
finding skilled workers. The Act superseded JTPA and amended the Wagner-Peyser Act.

Initial grants for the WIA program were awarded by DOL, ETA, beginning in PY 2000.
However, unexpended funds from the PY 1998 and PY 1999 JTPA State grants were
authorized for transition into the WIA program. Generally, the states are required to pass
through approximately 85 percent of the awards received from DOL to Local Boards
(subrecipients). States have the original program year plus two additional program years
to spend the grant funds. However, funds allocated by a State to a Local Board for any
program year are available for expenditure only during that program year and the
succeeding program year. Funds that are not expended by a Local Board in this two-year
period must be returned to the State.

States are required to report WIA activities on quarterly Financial Status Reports (FSRs).
Accrued expenditures and obligations are key items reported on the FSRs. Accrued
expenditures are reported when a valid liability has been created through delivery of
goods or services, regardless of when cash payment is made. For example, salaries
earned by employees, but not yet paid, should be recorded as accrued expenditures. The
States or Local Boards reports obligations when certain events occur that will require
payment in the same or a future period. Obligations are defined in the WIA regulation as
follows:

       . . .the amounts of orders placed, contracts and subgrants awarded,
       goods and services received, and similar transactions during a funding
       period that will require payment by the recipient or subrecipient during
       the same or a future period [20 CFR 660.300] (emphasis added).

However, according to ETA, Office of Grants and Contract Management, States have
been verbally instructed to report obligations incurred at the State level (Statewide
Activities and Rapid Response) at the time obligations are incurred by the state.
Likewise, the State has been instructed to report obligations for Local Board activities
(Local Administration, Youth, Adult and Dislocated Workers) only for those amounts of
funding for which a legal obligation exists at the Local Board level. ETA had not clearly
specified whether Local Board obligations or the State’s pass-through awards should be
included on FSRs.




                                            3
Scope and Methodology

Our agreed-upon procedures encompass WIA funds awarded to North Carolina for PY
2000, Fiscal Year (FY) 2001, PY 2001 and FY 2002, as well as PY 1998 and PY 1999
JTPA funds transitioned into the WIA program. Procedures were applied to grant
activities reported by the State and three Local Boards (Capital Area, Eastern Carolina
and Region “L”) from July 1, 2000 through December 31, 2001. For procedure number
7, we obtained information subsequently reported by the State for the March 31, 2002
reporting period.

In general, our procedures were designed to summarize North Carolina’s WIA financial
activity (obligations and expenditures) through December 31, 2001, to determine if
amounts reported to ETA agreed with supporting accounting records, and to measure the
extent to which the State and Local Boards have obligated and expended WIA funds.




                                           4
                        PROCEDURES AND FINDINGS



1.   Interview the appropriate State personnel regarding how information is
     accumulated from the Local Boards and about the preparation of the FSR
     269s. Using this information, verify exactly what obligations were reported
     on the December 31, 2001 WIA Quarterly Financial Status Reports.
     Determine if the amounts passed through to the Local Boards are reported as
     obligations on the FSRs. Based on the information obtained, determine if the
     State is reporting obligations as described at 20 CFR 660.300 to include
     subgrants awarded to subrecipients.

     As of December 31, 2001, amounts reported as “obligations” on FSRs prepared
     by the State represented amounts which had been allocated to Local Boards for
     the Adult, Youth and Dislocated Worker programs as well as amounts allocated
     for administrative expenses at the Local level. Obligations for Statewide
     Activities and Rapid Response did represent legal obligations to service
     providers.

     When the State allocated funds to Local Boards, the full amount of the award was
     recorded in the North Carolina Department of Commerce, Division of
     Employment and Training (DET) Financial Management Information System
     (FMIS). Local Board level obligations and expenditures were reported to DET on
     Monthly Financial Reports (MFRs). Local Boards’ reporting process is discussed
     at item 4 of this report.

     According to representatives of DET, amounts passed through to the Local
     Boards are considered “obligated” at the time the funds are allocated among the
     Local Boards. Reporting funds passed to Local Boards as “obligated” does not
     consider whether bona fide legal obligations exist.

     Based on our review of supporting schedules and reports provided as support for
     the FSRs, we determined that obligations reported on the FSRs represented
     amounts awarded as subgrants to subrecipients. Consequently, DET was
     reporting obligations as defined in 20 CFR 660.300.




                                         5
2.   Determine how the State tracks the various funding periods for both State
     activities and Local Board activities, and if data is accounted for in a manner
     that will allow expenditures to be matched against the appropriate
     obligation.

     Based on discussions with representatives of DET and examination of financial
     records at the State and Local Board levels, we determined that DET does not
     match expenditures with the appropriate fiscal period’s funding. Rather,
     expenditures of a given period are charged against the oldest available funding.

     Expenditure information reported to the State by the Local Boards is segregated
     by funding period. However, reported expenditures were charged to the earliest
     year that funding remained available, rather than the year in which expenditures
     accrued. As a result, a program year’s actual cost could not be matched with the
     period for which it was funded.

3.   Determine if the cost information (Outlays on the December 31, 2001 FSRs)
     was reported on the accrual basis of accounting as required at 29 CFR 97
     and the WIA reporting instructions at 20 CFR 667.300 (c) (3).

     State officials stated that reported expenditures were inclusive of accruals in
     accordance with 29 CFR 97 and the WIA reporting instructions at 20 CFR
     667.300. DET’s Financial Management Policy guidelines did require Local
     Boards to report expenditures on MFR’s for which goods and services had been
     provided but payment had not been made.

     We made specific inquiries of Local Board representatives regarding the inclusion
     of accruals in reported expenditures. One of the three Local Boards visited, the
     Eastern Carolina Local Board, did not report on the accrual basis until 2002. The
     remaining two Local Boards visited stated that reported expenditures were, in
     fact, inclusive of accruals as is required by 29 CFR 97 and 20 CFR 667.300.




                                          6
4.   Determine what information is required to be reported by the Local Boards
     to the State, including the content, format, frequency and any written
     instructions issued by the State. Obtain copies of reports submitted by the
     Local Boards and copies of written instructions.

     DET’s Financial Management Policy manual required monthly reporting of Local
     Board expenditures by “Program Year Allocation” (PYA). Local Board
     Obligation information is not captured by the FMIS. The Local Boards submit a
     Monthly Financial Report (MFR) electronically via the FMIS. These MFRs are
     due by the last working day of the month following the month reported.
     Expenditures are reported on a cumulative basis for the program year, purportedly
     inclusive of accruals.


5.   Obtain or prepare from documents supporting the FSR 269s, a summary of
     the MFRs from the Local Boards and analyze this information to select the
     Local Boards to visit.

     To select Local Boards for conducting site-fieldwork, we summarized available
     funding and expenditures for each Board. We made a judgmental selection of
     three Local Boards to review. The selection included the Capital Area, Eastern
     Carolina and Region “L” Local Boards.


6.   Compare the information compiled at ETA to the reports prepared by the
     States and explain any differences determined.

     We compared the FSR data reported by DET to the DOL to corresponding data
     compiled at ETA. Information on the FSRs agreed to the information compiled at
     ETA. Key elements of the FSR data were extracted from the reports, including
     Total Federal Funds Authorized, Obligations, Outlays (accrued expenditures), and
     the Unobligated Balance of Federal Funds for each PY and FY. The extracted
     data was used to perform the analytical procedures described at item 7 of this
     report.




                                         7
7.   Perform an analytical review of the information obtained to develop trend
     information and investigate any unusual relationships noted.


     Total Federal Funds Authorized

     The table below shows total WIA funds awarded by the DOL to North Carolina
     since inception of the WIA program:


                                                        Expiration of
                                 Beginning of            Spending         Total WIA Funds
        Funding Period          Spending Period            Period             Awarded
           PY 1998            JTPA transition          June 30, 2001     $ 1,582,176

              PY 1999         JTPA transition          June 30, 2002     $ 26,128,641

              PY 2000         July 1, 2000             June 30, 2003     $ 23,561,472

              FY 2001         October 1, 2000          June 30, 2003     $ 21,935,374

              PY 2001         July 1, 2001             June 30, 2004     $ 27,757,383

              FY 2002         October 1, 2001          June 30, 2004     $ 23,413,117

      Less:                   PY 2001 Rescission                        ($    1,459,422)
                                             Total Awards                $ 122,918,741


     WIA funds are awarded on a PY basis from July 1 to June 30, except for Youth
     grants that are available in the April preceding the start of the PY. However, a
     portion of PY 2000 and 2001 funding, denoted as “FY” above, was not available
     until October 1 of each respective PY.




                                         8
7. (Continued)


      WIA Funds Obligated

      Data presented below reflects total WIA funds obligated by the State as of
      December 31, 2001.



                                                   Total WIA
                               Total Funds            Funds             Amount           Percent of
                                Awarded             Obligated         Unobligated         Funding
     Funding Year              (in millions)       (in millions)      (in millions)      Unobligated
       PY 1998                  $ 1.6                $ 1.6               $ 0.0              0.0 %

       PY 1999                  $ 26.1               $ 25.8              $ 0.4               1.5 %

       PY 2000                  $ 23.6               $ 23.5              $ 0.0               0.0 %

        FY 2001                 $ 21.9               $ 21.8              $ 0.1               0.5 %

       PY 2001                  $     27.8           $    24.7           $    3.1           11.2%

        FY 2002                 $ 23.4               $ 19.8              $ 3.6              15.4 %

Less: PY 2001 Rescission       ($      1.5)               N/A            ($ 1.5)           N/A

         Total                      $ 122.9          $ 117.2              $   5.7            4.6 %


      Note: Information in the above table was obtained from quarterly Financial Status Reports
      prepared by DET and summarized. Additionally, a portion of PY 2001 funding was rescinded as
      noted above. In some instances, individual amounts in the above columns do not sum to the
      amount presented as the “Total” due to rounding differences.



      Of the total $122.9 million in available funding, $5.7 million (4.6 percent) was
      reported as unobligated as of December 31, 2001. However, as discussed further
      at item 1 of this report, in addition to obligations made at the State level, North
      Carolina reports funds to be “obligated” upon their allocation to the Local Boards.




                                               9
7. (Continued)

      WIA Funds Obligated

      In response to a request by DOL-OIG, we obtained the amounts of actual
      obligations that represented legal liabilities as of March 31, 2002. The
      information summarized below was provided by DET.

                                                       Total WIA
                                 Total Funds              Funds              Amount           Percent of
        Funding                   Awarded              Obligated           Unobligated         Funding
         Year                    (in millions)        (in millions)        (in millions)      Unobligated
        PY 1998                    $ 1.6                 $ 1.6                $ 0.0             0.0 %

        PY 1999                    $ 26.1                $ 26.1               $ 0.0               0.0 %

        PY 2000                    $ 23.6                $ 23.4               $ 0.2               0.8 %

        FY 2001                    $ 21.9                $ 21.1               $ 0.8               3.7 %

        PY 2001                    $    27.8             $   13.7             $ 14.1              50.7%

        FY 2002                    $ 23.4                $ 15.4               $ 8.0               34.2 %

Less: PY 2001 Rescission          ($     1.5)                N/A             ($ 1.5)             N/A

         Total                      $ 122.9               $ 101.2             $ 21.7              17.7%


      Note: Information in the above table regarding actual obligations was obtained from
      representatives of DET and summarized. Additionally, a portion of PY 2001 funding was
      rescinded as noted above. In some instances, individual amounts in the above columns do not sum
      to the amount presented as the “Total” due to rounding differences.



      Of the total $122.9 million in available funding, $21.7 million (17.7 percent) was
      actually unobligated as of March 31, 2002. The amount of actual obligations at
      March 31, 2002 was $16 million less than the amount reported three months
      earlier at December 31, 2001.




                                                10
7. (Continued)


      Total Federal Expenditures

      The following summary reflects the total WIA expenditures reported by the State
      of North Carolina through December 31, 2001. These amounts are recorded in
      DOL’s general ledger.



                              Total Funds            Total             Amount             Percent of
                                Awarded         Expenditures         Unexpended            Funding
    Funding Year              (in millions)     (in millions)        (in millions)       Unexpended
      PY 1998                   $    1.6           $    1.6            $     0.0             0.0%

       PY 1999                  $   26.1            $    25.6           $     0.6             2.3%

       PY 2000                  $   23.6            $    19.9           $     3.7            15.7%

       FY 2001                  $ 21.9              $    15.9           $     6.0            27.4%

       PY 2001                  $   27.8            $     5.8           $    22.0            79.1%

       FY 2002                  $ 23.4              $     0.7           $    22.7            97.0%

Less: PY 2001 Rescission       ($    1.5)               N/A            ($      1.5)           N/A

         Total                   $ 122.9            $    69.4           $    53.5           43.5%



      Note: Information in the above table was obtained from quarterly Financial Status Reports
      prepared by DET and summarized. Additionally, a portion of PY 2001 funding was rescinded as
      noted above. In some instances, individual amounts in the above columns do not sum to the
      amount presented as “Total” due to rounding differences.



      Of the $122.9 million of total WIA funds awarded to North Carolina, the State
      had spent $69.4 million (56.5 percent), leaving $53.5 million (43.5 percent)
      unexpended as of December 31, 2001. At this rate of spending, it would take
      approximately fourteen months to spend the remaining funds, during which time
      the State would receive additional WIA allocations.




                                               11
7. (Continued)

      Expenditure Analysis by Program

      The following provides a summary of the unexpended funding by program
      component:

                                         Amount           Amount            Percent of
                                        Awarded         Unexpended           Funding
        Program Component             (in millions)     (in millions)      Unexpended


      Local Board Activities:
      Adults                          $    31.7         $ 10.7                34.1%
      Dislocated Worker               $    32.4         $ 12.8                39.5%
      Local Admin                     $    10.3         $  4.1                39.8%
      Youth                           $    29.5         $ 12.2                41.4%
      Total Local Board
       Activities                     $ 103.9           $    39.8             38.4%

      State Activities:
      State-wide Activities           $ 18.2            $ 13.6                74.7%
      State-wide                      $ 2.3             $ 1.5                 65.2%
      Rapid Response
      Total State Activities          $    20.5         $    15.1             73.7%

      Less: PY 2001 Rescission ($           1.5)        ($    1.5)              N/A


      Total Funding                   $ 122.9            $   53.4             43.5%



      Note: Information in the above table was obtained from quarterly Financial Status Reports
      prepared by DET and summarized. Additionally, a portion of PY 2001 funding was rescinded as
      noted above. In some instances, individual amounts in the above columns do not sum to the
      amount presented as “Total” due to rounding differences.


      WIA expenditure data submitted by the State indicates that $15.1 million (73.7
      percent) and $39.8 million (38.4 percent) at DET and Local Board levels,
      respectively, were not spent as of December 31, 2001.




                                               12
8.   Interview the appropriate Local Board personnel regarding how information
     is accumulated and about the preparation of the Local Board reports to the
     State. Inquire as to the source of obligation, cost and/or payment
     information reported to the State by the Local Board, and determine if the
     information reported agrees with the corresponding source accounting
     records.

     Through discussions with Local Board personnel, we determined that expenditure
     information and fund availability by period is reported to the State using MFRs.
     Information on the MFRs included the original funding available, amounts of
     expenditures to date, and remaining fund availability per funding stream. Local
     Boards did not report obligation information to DET on a monthly basis.

     We reviewed source accounting records at the three Local Boards we visited to
     determine if they agreed to information reported to DET. In all instances, the
     Local Boards provided documentation supporting the information reported on
     their MFRs.

9.   Determine how the Local Board tracks the various funding periods and if
     data is reported and accounted for in a manner which will allow
     expenditures to be matched against the appropriate obligation or
     subcontract agreement.

     The Local Boards employ FIFO methodology in associating period expenditures
     with funding sources. This methodology does not ensure matching of a particular
     period’s expenditures with the funding allotted to that period. Expenditures
     reported by Local Boards were generally not matched with the funding applicable
     to the period in which they accrued. Rather, current expenditures were charged
     against prior period funds until exhausted, and then matched against subsequent
     periods’ funding.

     For example, after PY 2000 had lapsed, any funding that remained would be used
     to satisfy a subsequent period’s expenditures until all of PY 2000 funding was
     exhausted. FY 2001 funding would subsequently be used to satisfy expenditures.
     Matching a period’s expenditures against prior period funding in this manner
     dissociates the funding allotted to a specific period from the actual program cost
     for that period.




                                         13
10.   Determine how the Local Board defines an obligation and the point at which
      funds are considered to be obligated. Determine if the Local Board
      definition includes only anticipated expenditures to meet bona fide needs of
      the funding program year and for which a legal liability exists.

      At the three Local Boards visited, representatives indicated that the “obligation”
      of funds coincides with the execution of contracts for WIA services. The Local
      Boards’ definition of obligations includes only anticipated expenditures to meet
      bona fide program needs.

      However, as mentioned at item number 9 of this report, there is no matching of
      the appropriate funding year and program year cost due to use of FIFO
      methodology.




                                          14
                                                                        EXHIBIT I



                  SAMPLE FINANCIAL STATUS REPORT




Following this title page is a WIA financial status report used by States to report
program activities to DOL




                                     15
16
                                                                      EXHIBIT II

                    THE COMPLETE TEXT OF
            NORTH CAROLINA’S REPONSE TO THE DRAFT
               AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of North Carolina’s response to our
agreed-upon procedures report, issued to them on March 5, 2003.




                                    17
18
